Case: 20-12854 Date Filed: 08/14/2020 Page: 1 of 6
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-12854-C
IN RE: CONGHAU TO,
Petitioner.

Application for Leave to File a Second or Successive
Motion to Vacate, Set Aside,
or Correct Sentence, 28 U.S.C. § 2255(h)
Before MARTIN, JILL PRYOR, and BRANCH, Circuit Judges.
BY THE PANEL:
Pursuant to 28 U.S.C. §§ 2255(h) and 2244(b)(3)(A), Conghau To has

filed an application

seeking an order authorizing the district court to consider a second or
succes

sive motion to vacate,

set aside, or correct his federal sentence under 28 U.S.C. § 2255.

Such authorization may be

granted only if this Court certifies that the second or successive motion

contains a claim'involving:

newly discovered evidence that, if proven and viewed in light of
the
evidence as a whole, would be sufficient to establish by clear and
convincing
evidence that no reasonable factfinder would have found the movan
t guilty of the
offense; or
a new rule of constitutional law, made retroactive to cases on collate
ral
review by the Supreme Court, that was previously unavailable.
28 U.S.C. § 2255(h). "The court of appeals may authorize the filing

of a second or successive

application only if it determines that the application makes a prima
1

facie showing that the

Case: 20-12854 Date Filed: 08/14/2020 Pag
e: 2 of 6
application satisfies the requirements of this subsectio

n.". Id. § 22440)(3)(C); see Jordan v.

Sec

Dep't of Corr, 485 F.3d 1351, 1357-58 (11th Cir.
2007) (explaini

ng that this Court's

determination that an applicant has made a prima facie
showing that the statutory criteria have
been met is simply a threshold determination).
We must dismiss a claim that was presented in a prior

application to file a second or

successive § 2255 motion. .See 28 U.S.C. § 2244(b)(1
); In re Baptiste, 828 F.3d 1337

. 1339 ( 11th,

Cir. 2016).. IA] claim is the same where the basic grav

amen of the argument is the same, even

where new supporting evidence or legal arguments are
adde

d." In re Baptiste, 828 F.3d at 1339.

The bar on previously presented claims is jurisdiction

al. In re Bradford, -830 F.3d 1273,.1277778

(11th Cir. 2016). In In re Hammond, we clarified
that In re Baptiste. does not bar new claims
under United States v. Davis,' as Davis was a new cons
titutional rule "in its own right, separ

ate

and apart from (albeit primarily based on) Johnson

and Dimaya.- 931 F.3d 1032, 1039-40 (11th

Cir. 2019).
To was convicted of one count each of racketeering,

in violation of 18 U.S.C. § 1.962(c)

(Count One); conspiracy to engage in a pattern of racke
teerin

g activity, in violation of § 1962(d)

(Count Two); conspiracy to commit Hobbs Act robbery,
Three), attempted. Hobbs Act robbery, in violation

in violation of 18 U.S.C. § 1.951(a) (Count

of § 1951(a) (Count Four); two counts of

substantive Hobbs Act robbery, in violation of § 1951

(a) (Counts. Five and Six); and three counts

of using a firearm during and in furtherance of a crim

e of violence, in violation of 1.8 U.S.C.

§ 924(c) (Counts Seven, Eight. and Nine). Notably,
§ 924(c) counts related only to one of the attempted or

the indictment alleged that each of the

substantive Hobbs Act robbery offenses in

United States v. Davis,-139 S. Ct. 2319. 2323, 2336
(2019).
2

Case: 20-12854 Date Filed: 08/14/2020 Page: 3
Counts Four, Five, and Six. To was sentenced to a total of

of 6

life imprisonment plus a consecutive

540-month sentence for the § 924(c) convictions.
In 1999, To filed his original § 2255 motion, which the distri

ct court denied on the merits.

In 2016, To filed an application for leave to file a successive
United States, 135 S. Ct. 2551 (2015). In his application, he
were unconstitutional in light of Johnson because consp

§ 2255 motion based on Johnson v.

argued that his § 924(c) convictions

iracy to commit Hobbs Act robbery was

not a crime of violence under § 924(c)(3)(A)'s elem

ents clause. He also argued that his

racketeering convictions were predicated on his conspiracy,

attempted, and substantive Hobbs Act

robbery convictions and that those convictions were no
longe

r crimes of violence in light of

Johnson. We granted To's application as to. the § 924(c
) conviction

predicated on attempted

Hobbs Act robbery, reasoning that attempted Hobbs Act
robbe

ry might not have categorically

qualified as a crime of violence under § 924(c)(3)(A)'s

elements clause. We denied To's

application as to his remaining claims.
To then filed an authorized second § 2255 motion in the

district court that presented his

claim that his § 924(c) conviction predicated on attempted Hobb

s Act robbery was unconstitutional

in light of Johnson because attempted Hobbs Act robbery

did not qualify as a crime of violence

under § 924(c)(3)(A)'s elements clause. The district court
issue a certificate of appealability, noting that the Supreme

denied the motion. We declined to

Court had granted certiorari in Davis

but explaining that, regardless, attempted Hobbs Act robbe

ry was a crime of violence under

§ 924(c)(3)(A)'s elements clause.
In April 2020, To filed a successive application under
conspiracy convictions did not categorically qualify as crime

Davis.

To contended that his

s of violence under § 924(c)(3)(A)'s

3

Case: 20-12854 Date Filed: 08/14/2020 Page: 4 of 6
elements clause and, in light of Davis, the § 924(c) convictions
predicated on those conspiracy
convictions must be vacated. He appeared to assert that his attem

pted and substantive Hobbs Act

robbery convictions also were not valid predicates because they

were the basis of his conspiracy

charges and were presented to the jury under a theory that essent
ially

required a finding that there

was a conspiracy. To contended that his racketeering convi

ctions were also essentially

conspiracy convictions and, thus, were no longer crimes of violen

ce that could support his § 924(c)

convictions. Finally, To appeared to assert that his racketeerin

g convictions, themselves, were

invalid because they essentially were the same as the Hobbs Act
convi

ctions. He stated that his

claim relied on a new rule of constitutional law as announced in

Davis.

We denied To's application, reasoning .that To's § 924(c) convi

ctions were actually

predicated only on substantive and attempted Hobbs Act robbe

ry and not on either of his

conspiracy convictions. And, because we had previously held

that both of those offenses

categorically qualify as crimes of violence under § 924(c)(3)(A

)'s elements clause, we concluded

that To had failed to make a prima facie showing of entitlement
§ 924(c) convictions. As to his challenges to his racketeering

to relief under Davis as to his

convictions, we concluded that

those convictions did not serve as predicates for any of To's § 924(c

) convictions and, even if they

had, Davis did not address the racketeering statute.
In his present application, To first asserts that he has newly discov

ered evidence showing

that his indictment wrongly referred to a murder and that anoth

er person was convicted and

sentenced for that murder in state court in 1995. Liberally constr

uing his application, he contends

that Count One of his indictment identified murder in violation
2(b) but cited a Florida statute prohibiting conspiracy to comm

of Florida law as racketeering act
it robbery rather than murder. To

4

Case: 20-12854 Date Filed: 08/14/2020 Page: 5
explains that he obtained the text of the Florida statutes in

of 6

May 2019 because the statutes were not

otherwise accessible through the prison's law library. He

also asserts that robbery, rather than

murder, was listed on the verdict form as racketeering act

2(b) of Count One, which constituted

fraud. To argues that, as a result, he was convicted of

robbery rather than murder but was

unconstitutionally sentenced with an enhancement for the

murder.

Second, To contends that he is actually innocent of his § 924(c

) convictions because, based

on the text of § 1951(a), Hobbs Act robbery cannot be a crime
elements clause. He appears to rely on Curtis Johnson

of violence under § 924(c)(3)(A)'s

v. United States, 559 U.S. 133 (2010) for

support. To also asserts that In re Baptiste does not apply

to successive applications. He argues

that this claim relies on newly discovered evidence, includ

ing "misinterpretations of the law" and

conflicting court opinions on the matter. To contends that

his § 924(c) convictions and resulting

consecutive sentences are thus unconstitutional.
To attached to his application copies of invoices from 2019

showing payment for retrieval

of the Florida statutes at issue as well as copies of the statut

es themselves.

To's first claim does not satisfy the statutory criteria in §
on a new rule of constitutional law nor newly discovered

2255(h) because it relies neither

evidence of innocence. See 28 U.S.C.

§ 2255(h). Liberally construed, the newly discovered evide

nce To purports to present is primarily

the Florida statutes he claims were cited in his indictmen

t and jury verdict. But statutes are not

evidence and, even if they were, the Florida statutes do not

in any way show To's actual, factual

innocence of his racketeering convictions or the racketeerin

g acts alleged therein. See In re

Boshears, 110 F.3d 1538, 1541 (11th Cir. 1997). Nor
does the purported new
codefendant was convicted in state court of the murder that
5

evidence that a

was a predicate for To's racketeering

Case: 20-12854 Date Filed: 08/14/2020 Pag
e: 6 of 6
convictions because To was not convicted of murd
er and
he personally committed murder.

his convictions did not require prod that.

See United States v. To, 1.44 F.3d 737, 740-43 & n.5

(11th Cir.

1.998) (aiTimiing To's conviction On Count One,
whic

h. included as racketeering act 2(b) the

murder to which his codefendant confessed and that.

To "helped orchestrate"). And to the extent

that To challenges the enhancement of his sente

nce based on that murder, that claim is not

cognizable under § 2255(h)(1).

See In re Dean, 341 F.3d 1247, 1248 (11th Cir.

that the newly discovered evidence exception does

2003) (holding

not apply to claims of sentencing error).

As to To's second claim, unlike In re Hammon
d, To raised substantially the same
challenges albeit under Davis---,to his § 924(C)
convictions and predicate offenses in his

most

recent successive application. Cf In re Hammon
d, 931 .17.3d at 1039-40. Specifically, in his
most recent application, To challenged his § 924(c

) convictions predicated on Hobbs Act robbery

on the -ground that Hobbs Act robbery no longer
Although To now relies on the text. of § 1951(a) in

qualified as a crime of violence post-DaVis..

support of his argument. rather than Davis, "the .

basic gravamen of the argument is the same," even
support of his argument.

though To changed the. legal authority in.

See In re Baptiste, 828 F.3d at 1339. Thus, To's

second claim is barred

under In re Baptiste because he raised the same
el :dm in his most recen

t- successive application.

See id. at 1339-40..
Accordingly, we DISMISS To's application in part

as barred by In re Baptiste, as it

presents a claim he previously presented. To's rema

ining claim does not satisfy the statutory

criteria in § 2255(h), so we DENY his application as

6

to that claim.

Additional material
from this filing is
available in the
Clerk's Office.

